APPENDIX
Opinion of the Eighth Court of Appeals .................................................................... 1a
Order of Texas Court of Criminal Appeals granting review ....................................14a
Opinions of Texas Court of Criminal Appeals ..........................................................15a
Record of Trial Hearing (September 19, 2016) .........................................................26a

COURT OF APPEALS
EIGHTH DISTRICT OF TEXAS
EL PASO, TEXAS

MICHAEL J. BUCK,

§
No. 08-16-00294-CR
Appellant,

§
Appeal from the

V.

§
243rd District Court

THE STATE OF TEXAS,

§
of El Paso County, Texas
Appellee.

§

(TC# 20160D01234)

OPINION
Michael Buck appeals his convictions of two counts of aggravated sexual assault.
Appellant waived his right to a jury trial and entered an open plea of guilty. The trial court found
Appellant guilty and assessed punishment on each count at imprisonment for twenty-three years’
in the Texas Department of Criminal Justice-Institutional Division. We affirm.
FACTUAL SUMMARY
In March 2016, an El Paso County grand jury returned a two-count indictment against
Appellant alleging he committed aggravated sexual assault and used or exhibited a deadly weapon,
namely, a gun, in the commission of the offense. Appellant entered a not guilty plea at the
arraignment on April 12, 2016. Appellant’s attorney raised concerns about his medical condition
and need for medical treatment at a status hearing and bond hearing in May 2016. The trial court
reduced Appellant’s bond from $100,000 to $75,000.

Appendix 1

On May 5, 2016, the trial court entered an order setting the case for an Article 28.01
hearing1 on August 31, 2016. The order notified the parties that all Article 28.01 motions must be
filed seven days before the hearing and all motions would be heard on the scheduled hearing date.
Appellant did not file an election to have the jury assess punishment. At the Article 28.01 hearing
on August 31, 2016, Appellant’s attorney addressed ongoing concerns about Appellant’s medical
condition and need for treatment. The court stated that the medical issues needed to be addressed
by the doctor at the county jail. Appellant’s counsel stated that she had filed written notice of
insanity defense and she had just received a copy of the examining doctor’s report. Appellant did
not raise any other issues at the 28.01 hearing.
On September 6, 2016, the court conducted a final judge’s conference in the case, and
Appellant’s counsel informed the court that she wanted to withdraw because Appellant was
dissatisfied with her representation of him. Counsel explained that the State had offered Appellant
a five-year plea bargain, but Appellant wanted probation and the State would not offer probation.
The trial judge stated that he would not address counsel’s request to withdraw until she had filed
a written motion and reminded counsel that while he would consider the motion to withdraw she
should be prepared to go to trial in ten days. Counsel filed a written motion to withdraw on
September 8, 2016. The court denied the motion. On the trial date, September 19, 2016, the trial
court spoke with the attorneys before Appellant arrived in the courtroom. Appellant’s attorney
informed the court that Appellant wanted to plead guilty, but the State’s offer had increased from
five years to ten years. When counsel asked whether the court would accept the plea bargain, the

1

TEX.CODE CRIM.PROC.ANN. art. 28.01 (West 2006).

-2-

Appendix 2

trial judge responded that it would be an open plea and he would not commit himself prior to the
plea. When counsel stated that she needed to speak to Appellant and confirm whether he wished
to plead guilty, the court told her that Appellant’s case was going to be resolved that day whether
he proceeded with a jury trial or entered a plea of guilty.
After Appellant arrived, the court asked him whether he intended to enter an open plea of
guilty, and Appellant replied that he wanted to go to trial and represent himself. The court
informed Appellant that because the available jury panel had been used on another case, the trial
would be continued until Friday, September 23. The court then engaged in the following exchange
with Appellant:
[The trial court]: Mr. Buck, let me explain a couple of things to you. One, I am
not -- your attorney’s motion to withdraw was denied, and it’s still denied. You are
here on a first-degree felony. How many counts?
[The prosecutor]: Two counts, Your Honor.
[The trial court]: Two counts. All right. Have you explained the consecutive
sentencing to your client, ma’am?
[Defense counsel]: No, Your Honor.
[The trial court]: Okay. Take a minute and do it real quick.
(Short pause.)
[The trial court]: Let the record reflect counsel had an off-the-record conversation
with her client. Did you understand your attorney’s explanation of consecutive
sentencing, what's commonly known as stacking?
[Appellant]: Yes, ma’am -- I mean, yes, sir.
[The trial court]: Mr. Buck, I also want to point out to you that you have an absolute
right to represent yourself. You are looking at five to 99 or life on count 1. You
are looking at five to 99 or life on count 2. I’m going to request your counsel be
-3-

Appendix 3

available to you. If you want to proceed pro se, that is your right. I also want to
tell you, Mr. Buck, that this Court will hold you to the same standard as I do these
two prosecutors who have graduated from law school. Do you understand that?
[Appellant]: Yes, sir.
[The trial court]: I know you are not familiar -[Appellant]: Not at all. Not at all.
[The trial court]: I know you’re not familiar with the rules of evidence.
[Appellant]: Not at all.
[The trial court]: I will hold you to the same standard. Do you understand that?
[Appellant]: Yes, sir.
[The trial court]: I am bound by the law to enforce the rules of evidence and the
code of criminal procedures, the statutes. You will proceed and be held
accountable, just like any other lawyer. Now, if you do not want the assistance of
Ms. Caballero, that is your decision. I’m going to request -- let me restate that. I’m
going to order that she be sitting in the vicinity. Okay. But understand something.
You will not start this trial and expect her to take it over. You proceed pro se, sir,
you will finish this trial pro se. She will be there merely to assist you and answer
your questions. She’s not going to try the case for you. Do you understand that?
[Appellant]: Yes, sir. May I say something?
[The trial court]: Yes, sir.
[Appellant]: Okay. When I came in on August 31st, I was offered a plea of five
years. At the time, I asked my lawyer, ‘I would like to think about this. Can you
give me an idea of how much time I can have to think about it?’ And she said,
‘You've got a week.’ Okay. I came in on 9/6 and told her that I would go ahead
and accept the five years and that way, I wouldn't have to go to trial. And I asked
her if she got any of the evidence that I asked her to get, such as my medical records
and other things, and she stated no. So I know that my case was really weak. So
that’s why I went ahead and said I would accept the five years. Then she came
Tuesday the 13th, told me the five years had been taken off the offer. I don’t think
she’s going to be able to -- be able to represent me the way that I would feel like I
wanted to be represented because she keeps going back to the idea that I don’t want
-4-

Appendix 4

to be represented because I have cancer.
represented.

That’s not the way I want to be

[The trial court]: Mr. Buck, listen to me and listen to me carefully. I’m not
interested in what you think the strength of your case is. What you need to
understand, if this jury says guilty on count 1, it’s five to 99 or life. If they say
guilty on count 2, that’s five to 99 or life, and I and I alone will decide whether to
stack you or let them ride.
[Appellant]: I thought the jury had -[The trial court]: No, sir.
[The prosecutor]: Your Honor, I don't know if the defendant is aware, but he’s -the election after the 28.01s -- I believe he’s going to the judge for punishment. Am
I correct?
[The trial court]: Let me rephrase that. If they find you guilty, I will assess
punishment between five and 99 or life on count 1. Then I’ll decide count 2, five
to 99 or life. Then I will decide whether to stack them or let them run concurrent.
I and I alone will make that decision. Now, Mr. Buck, if -- it’s my understanding,
Ms. Caballero, that the complainant knew the defendant and is fully intending to
appear in Court and testify that the defendant is the one who sexually assaulted her.
[Defense counsel]: Judge, my understanding -- is the Court asking?
[The trial court]: Yeah. I’m not saying right or wrong, just what she’s going to say.
[Defense counsel]: My understanding from the prosecutor is that the complainant
is prepared to come in.
[The trial court]: Okay. Mr. Buck, understand, I don’t know if she’s telling the
truth or she isn’t. I’m merely telling you what the State anticipates she’s going to
say. If the jury doesn’t believe her, good for you. If they do believe her, you have
a problem because I am going to sentence you.
[Appellant]: Well, in that case, Your Honor, I’d like to go ahead and take the open
plea because I thought that the jury would have the right to assess the punishment.
[The trial court]: No, sir. You are mistaken. The jury will tell you guilty or not
guilty, count 1; guilty, not guilty count 2.
-5-

Appendix 5

[Appellant]: All right. Then may I go ahead and plea -- an open plea, sir?
Before the trial court responded, Appellant’s counsel asked the trial court to consider
allowing Appellant to plead guilty on the original five-year offer. The trial court informed the
parties that it would not accept the plea bargain even if the State was willing to offer it. The court
then stated the following to Appellant:
[The trial court]: These are your options, Mr. Buck. One, on Friday, we will
empanel another jury panel. You will go to trial. Two, I cannot stop you from
entering a plea to that jury, but the reality is, I will -- if you enter a plea of guilty to
the jury, I will instruct them to find you guilty, they will do so, and then you come
to me for punishment. So I don't consider that a viable option. Or two [sic], you
plea guilty today on what we call an open plea, meaning there is no
recommendation from the State of Texas to bind the defense, and I will assess an
appropriate punishment.
[Appellant]: All right. I’d like to go ahead and plea to the open plea, sir.
The court then took a short recess so the plea papers could be prepared and executed. The plea
papers include the admonishments required by Article 26.13 of the Code of Criminal Procedure.2
Following the recess, Appellant entered a plea of guilty and stated to the court that he was
entering his guilty plea freely and voluntarily. The plea papers were admitted into evidence as
State’s Exhibit 1. Appellant’s attorney stated that she explained State’s Exhibit 1 to Appellant and
she believed Appellant understood the admonishments, his rights, and the consequences of giving
up those rights. The plea papers include the following waiver of the right to appeal:
I have also been informed of my right to pursue a motion for new trial and/or
appeal, including the right to appeal in the event of a subsequent adjudication of
guilt after being placed on deferred adjudication community supervision or a
revocation of regular community supervision, and that I may waive this right. After
having consulted with my attorney, I do hereby voluntarily, knowingly and
intelligently waive my right to pursue a motion for new trial or appeal.
2

See TEX.CODE CRIM.PROC.ANN. art. 26.13 (West Supp. 2017).

-6-

Appendix 6

By placing his signature on this page of State’s Exhibit 1, Appellant acknowledged that he
had read the page, understood it, and signed it for the stated purpose.
When the trial court asked the State whether there was a plea bargain, the prosecutor
replied that there was not, but the State had agreed to waive its right to a jury trial in
exchange for Appellant waiving his right to appeal. Appellant’s attorney confirmed that
she explained to Appellant “that by signing these plea papers in this particular agreement,
he understood he was waving his right to appeal in return for the State waiving its right to
a jury trial.”
The trial court accepted Appellant’s guilty plea and conducted a separate punishment
hearing the following day. Both the State and defense presented evidence and witnesses relevant
to sentencing. The trial court assessed Appellant’s punishment at imprisonment for twenty-three
years on each count and ordered that the sentences run concurrently.
VOLUNTARINESS OF THE GUILTY PLEA
AND WAIVER OF THE RIGHT TO APPEAL
In his sole issue, Appellant contends that the trial court deprived him of due process by
coercing him to waive his right to a jury trial and enter an open plea of guilty. Appellant asserts
that the trial court coerced the guilty plea by (1) telling Appellant that his sentences could be
stacked when they could not; (2) strongly suggesting the trial court would stack the sentences if
Appellant chose to go to trial; (3) wrongfully denying Appellant his right to elect the jury to assess
punishment; (4) giving Appellant only two options, both of which required Appellant to plead
guilty; and (5) telling Appellant that going to trial was not a viable option. The State initially
-7-

Appendix 7

responds that the Court does not have jurisdiction to address this issue because Appellant waived
his right to appeal. Appellant has, however, challenged the voluntariness of his waiver of the right
to appeal.
A defendant in any criminal action has the right of appeal. TEX.CODE CRIM.PROC.ANN.
art. 44.02 (West 2018). The right to appeal can be waived by a defendant in a non-capital case.
See TEX.CODE CRIM.PROC.ANN. art. 1.14(a)(West 2005); Monreal v. State, 99 S.W.3d 615, 617
(Tex.Crim.App. 2003). A valid waiver which is voluntarily, knowingly, and intelligently made
will prevent a defendant from appealing a conviction absent permission from the trial court. Ex
parte Broadway, 301 S.W.3d 694, 697 (Tex.Crim.App. 2009); Monreal, 99 S.W.3d at 617. An
attack on a waiver of the right to appeal will not be considered unless the appellant presents factual
allegations supporting a claim that the waiver was coerced or involuntary. Ex parte Tabor, 565
S.W.2d 945, 946 (Tex.Crim.App. 1978); Perez v. State, 885 S.W.2d 568, 570 (Tex.App.--El Paso
1994, no pet.). In this case, Appellant challenges the voluntariness of his waiver of the right to
appeal on the same grounds as the voluntariness of his guilty plea. Consequently, we will consider
the merits of the arguments presented.
Consistent with due process, a guilty plea must be made with a clear understanding of direct
consequences of the plea. Mitschke v. State, 129 S.W.3d 130, 132 (Tex.Crim.App. 2004). A guilty
plea is valid only if it represents a voluntary and intelligent choice among the courses of action
open to the defendant. North Carolina v. Alford, 400 U.S. 25, 31, 91 S.Ct. 160, 164, 27 L.Ed.2d
162 (1970). A court shall not accept a plea of guilty unless the defendant enters the plea freely
and voluntarily. TEX.CODE CRIM.PROC.ANN. art. 26.13(b)(West Supp. 2017). When a trial court
-8-

Appendix 8

properly admonishes a defendant before he enters a plea of guilty, the admonishments constitute a
prima facie showing that the plea was both knowing and voluntary. Martinez v. State, 981 S.W.2d
195, 197 (Tex.Crim.App. 1998); Fielding v. State, 266 S.W.3d 627, 636 (Tex.App.--El Paso 2008,
pet. ref’d). Article 26.13 requires a trial court to provide a defendant with certain admonishments
before it accepts a plea of guilty or nolo contendere. See TEX.CODE CRIM.PROC.ANN. art.
26.13(a)(1)-(5). The trial court complied with Article 26.13 by providing the admonishments to
Appellant in writing. See TEX.CODE CRIM.PROC.ANN. art. 26.13(d). Further, Appellant testified
that he was entering the guilty plea freely and voluntarily. Appellant argues that his guilty plea
was involuntary, however, because the trial court misinformed Appellant regarding his options
and effectively told Appellant that he had to waive his right to a jury trial and plead guilty.
1. Stacking the Sentences
Appellant first complains that the trial court not only erroneously informed him that the
court could stack his sentences, but also suggested that the court would stack the sentences if
Appellant chose to go to trial before a jury. A trial judge has discretion to stack sentences if the
law authorizes the imposition of cumulative sentences. See Nicholas v. State, 56 S.W.3d 760, 765
(Tex.App.--Houston [14th Dist.] 2001, pet. ref’d). Article 42.08 authorizes a judge to cumulate
sentences for two or more convictions. See TEX.CODE CRIM.PROC.ANN. art. 42.08(a)(West 2018).
Under Section 3.03(a) of the Penal Code, if the defendant is found guilty of more than one offense
arising out of the same criminal episode prosecuted in a single criminal action, the sentences must
be concurrently except as provided in Section 3.03(b). TEX.PENAL CODE ANN. § 3.03(a), (b)(West
Supp. 2017). Section 3.03(b)(2)(A) provides that sentences may run consecutively for aggravated
-9-

Appendix 9

sexual assault committed against a victim younger than seventeen years of age. TEX.PENAL CODE
ANN. § 3.03(b)(2)(A).
Appellant was charged with two counts of aggravated sexual assault, but the evidence
submitted at the punishment hearing showed that the victim was not under seventeen years of age.
Thus, the trial court was prohibited from ordering the sentences to run consecutively. While the
trial court misinformed Appellant about the availability of consecutive or stacked sentences in this
case, Appellant has failed to show that this misinformation caused him to waive his right to a jury
trial and enter a plea of guilty. The trial court told Appellant that the court, not the jury, was
assessing punishment whether he went to jury trial or entered an open plea of guilty. In other
words, the trial court informed Appellant that stacked sentences were an option in either scenario.
Under these circumstances, the trial court’s erroneous statements about the possibility of stacked
sentences did not render Appellant’s waiver of his right to a jury trial and decision to plead guilty
involuntary.
2. Punishment Election
Appellant next argues that the trial court coerced the plea by wrongfully denying Appellant
his right to elect the jury to assess punishment. Appellant directs our attention to Article 37.07,
§ 2(b), Appellant contends that the prosecutor fraudulently represented that he could not elect for
the jury to assess punishment if he proceeded to a jury trial. Article 37.07, § 2(b) provides as
follows:
Except as provided by Article 37.071 or 37.072, if a finding of guilt is returned, it
shall then be the responsibility of the judge to assess the punishment applicable to
the offense; provided, however, that (1) in any criminal action where the jury may
recommend community supervision and the defendant filed his sworn motion for
- 10 -

Appendix 10

community supervision before the trial began, and (2) in other cases where the
defendant so elects in writing before the commencement of the voir dire
examination of the jury panel, the punishment shall be assessed by the same jury,
except as provided in Section 3(c) of this article and in Article 44.29. If a finding
of guilty is returned, the defendant may, with the consent of the attorney for the
state, change the election of one who assesses the punishment. [Emphasis added].
TEX.CODE CRIM.PROC.ANN. art. 37.07, § 2(b)(West Supp. 2017).
While Article 37.07, § 2(b) establishes the deadline for filing the defendant’s election for
the jury to assess punishment, a different deadline is imposed if the trial court sets a case for an
Article 28.01 hearing. Under Article 28.01, a trial court is authorized to set any criminal case for
a pretrial hearing before the case is set for trial, and direct the defendant and the State’s attorney
to appear for a conference and hearing. TEX.CODE CRIM.PROC.ANN. art. 28.01, § 1 (West 2006).
The pretrial hearing shall be to determine several matters, including the “[p]leadings of the
defendant.” TEX.CODE CRIM.PROC.ANN. art. 28.01, § 1(2). The defendant’s pleadings include the
defendant’s election to have the jury assess the punishment in the event he is found guilty.
TEX.CODE CRIM.PROC.ANN. art. 27.02(7)(West 2006). When a criminal case is set for an Article
28.01 hearing, “any such preliminary matters not raised or filed seven days before the hearing will
not thereafter be allowed to be raised or filed, exception by permission of the court for good cause
shown . . . .” TEX.CODE CRIM.PROC.ANN. art. 28.01, § 2. In Postell v. State, 693 S.W.2d 462, 464
(Tex.Crim.App. 1985), the Court of Criminal Appeals harmonized Articles 28.01 and 37.07 and
held that if the trial court conducts an Article 28.01 hearing, then the defendant must file his
election for the jury to assess punishment within the time prescribed by Article 28.01, § 2.
On May 5, 2016, the trial court entered an order setting the case for an Article 28.01 hearing
on August 31, 2016. The order notified the parties that all Article 28.01 motions must be filed
- 11 -

Appendix 11

seven days before the hearing and all motions would be heard on the scheduled hearing date. The
trial court conducted the hearing as scheduled on August 31, 2016 and Appellant did not file an
election to have the jury assess punishment by the deadline imposed by Article 28.01, § 2. After
being informed by the prosecutor and the trial court that he had not made such an election,
Appellant did not seek permission of the trial court to file an untimely election for the jury to assess
punishment nor did he attempt to show that good cause existed. Thus, the prosecutor and the trial
court did not misrepresent to Appellant that the court, rather than the jury, would assess
punishment in this case.
3. Waiver of Right to Jury Trial
Finally, Appellant contends that the trial court coerced the guilty plea by telling him that
he had only two options, both of which required Appellant to plead guilty, and by telling Appellant
that going to trial was not a viable option. When the trial court’s comments are read in context,
the trial court clearly explained to Appellant that he had a right to have a jury trial to determine his
guilt or innocence on each count, or he could enter an open plea of guilty. The court observed that
Appellant could also enter a plea of guilty before the jury, but this was not really a “viable option”
because the court would instruct the jury to find Appellant guilty and the court would then assess
punishment. The trial court did not at any time during the proceedings inform Appellant that
proceeding to jury trial on guilt or innocence was not a viable option.
The record before us reflects that Appellant freely, voluntarily, and with knowledge of the
consequences, waived his constitutional rights, including his right to a jury trial, and entered an
open plea of guilty. We further conclude that Appellant’s waiver of his right to appeal is not only
- 12 -

Appendix 12

voluntary, it is enforceable because the waiver was the result of a bargain. See Ex parte Broadway,
301 S.W.3d at 697-99 (holding that a defendant may knowingly and intelligently waive his entire
appeal as a part of a plea, even when sentencing is not agreed upon, where consideration is given
by the State for that waiver). We overruled the sole issue presented and affirm the judgment of
the trial court.

August 2, 2018
YVONNE T. RODRIGUEZ, Justice
Before McClure, C.J., Rodriguez, and Palafox, JJ.
(Do Not Publish)

- 13 -

Appendix 13

OFFICIAL NOTICE FROM COURT OF CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION, AUSTIN, TEXAS 78711

FILE COPY

12/5/2018
COA No. 08-16-00294-CR
BUCK, MICHAEL J.
Tr. Ct. No. 20160D01234
PD-0921-18
On this day, the Appellant’s petition for discretionary review has been granted. The
original and ten copies of the appellant’s brief must be filed with this Court within 30
days. The State’s brief is due 30 days after the timely filing of the appellant’s brief.
ORAL ARGUMENT WILL NOT BE PERMITTED
Deana Williamson, Clerk
MICHAEL J. BUCK
STILES UNIT - TDC # 2091633
3060 FM 3514
BEAUMONT, TX 77705
Appendix 14

IN THE COURT OF CRIMINAL APPEALS
OF TEXAS
NO. PD-0921-18

MICHAEL J. BUCK, Appellant
v.
THE STATE OF TEXAS
ON APPELLANT’S PETITION FOR DISCRETIONARY
REVIEW FROM THE EIGHTH COURT OF APPEALS
EL PASO COUNTY
Per curiam. K ELLER, P.J., filed a concurring opinion in which K EASLER and
Y EARY, JJ., joined.
Appellant appealed his conviction for two counts of aggravated sexual assault. He
waived his right to a jury and entered an open plea of guilty. The trial court found Appellant
guilty and assessed punishment on each count at imprisonment for twenty-three years in the
Texas Department of Criminal Justice-Institutional Division.1

1

Buck v. State, 2018 W L 3654916 at *1 (Tex. App.— El Paso 2018).

Appendix 15

BUCK — 2
On appeal, the State argued that Appellant waived his right to appeal.2 Appellant
responded that his waiver was involuntary because his plea was involuntary.3 The court of
appeals appeared to agree with the State that Appellant waived his right to appeal. The court
of appeals held that Appellant’s waiver of his right to appeal was voluntary and enforceable
because it was the result of a bargain.4 However, rather than dismiss Appellant’s appeal
pursuant to that waiver, the court of appeals affirmed judgment of the trial court.5
The record demonstrates that Appellant was properly admonished about the waivers
of his ability to appeal and file a motion for new trial. His attorney indicated on the record
that Appellant understood those admonishments, his rights, and the consequences of giving
up those rights. Further, the State agreed to waive its right to a jury trial in exchange for
Appellant’s waivers of a right to appeal and to file a motion for new trial.
Under the facts of this case, Appellant has validly waived his right to appeal.6 In
Carson v. State, we recognized that a defendant may knowingly and intelligently waive his
appeal as part of a plea when consideration is given by the State even when sentencing is not
agreed upon.7 The court of appeals correctly held that Appellant had waived his right to

2

Id. at *4.

3

Id.

4

Id. at *7 (“W e further conclude that Appellant’s waiver of his right to appeal is not only voluntary, it is
enforceable because the waiver was the result of a bargain.”).
5

Id.

6

See Carson v. State, 559 S.W .3d 489, 495–96 (Tex. Crim. App. 2018).

7

Id. at 496.

Appendix 16

BUCK — 3
appeal. Absent permission to appeal from the trial court, a valid waiver of appeal prevents
a defendant from appealing any issue in the case.8 Rather than affirm the trial court’s
judgment, the court of appeals should have dismissed his appeal. Consequently, we vacate
the court of appeals’ opinion and order it to withdraw its opinion and dismiss the appeal.
Delivered: June 10, 2020
Do Not Publish

8

Monreal v. State, 99 S.W .3d 615, 622 (Tex. Crim. App. 2003).

Appendix 17

IN THE COURT OF CRIMINAL APPEALS
OF TEXAS
NO. PD-0921-18

MICHAEL J. BUCK, Appellant
v.
THE STATE OF TEXAS
ON APPELLANT’S PETITION FOR DISCRETIONARY REVIEW
FROM THE EIGHTH COURT OF APPEALS
EL PASO COUNTY

K ELLER, P.J., filed a concurring opinion in which K EASLER, and Y EARY,
JJ., joined.
I agree with the Court that the court of appeals should have dismissed Appellant’s appeal
instead of affirming the judgment. But in affirming the judgment, the court of appeals was misled
by some of this Court’s own opinions. We should clear up the confusion that we ourselves created
and explicitly hold that a defendant who signs a waiver of appeal may not challenge the
voluntariness of that waiver by means of the very appeal that he waived.
As I will explain later, such a holding would be consistent with how we treat appeals in plea-

Appendix 18

BUCK CONCURRENCE - 2
bargain cases under Rule 25.2: a defendant can litigate on appeal whether there was a plea bargain
but cannot challenge the plea bargain as involuntary. Regarding waivers of appeal, a defendant
ought to be able to litigate on appeal whether there was a waiver of appeal but should not be allowed
to challenge the waiver as involuntary.1
BACKGROUND
On appeal, Appellant claimed that his waiver of appeal was ineffective. He relied on Ex
parte Broadway2 and Ex parte Reedy3 and cited Reedy in particular for the proposition that an
involuntary plea has the effect of invalidating a waiver of postconviction remedies. Saying that
Appellant challenged “the voluntariness of his waiver of the right to appeal on the same grounds as
the voluntariness of his guilty plea,” the court of appeals addressed Appellant’s claim on the merits.4

1

On the trial court’s appellate certification form, a checkbox was marked next to the
statement “is not a plea bargain case, and the defendant has the right of appeal,” but the phrase “the
defendant has the right of appeal” was crossed out, with the initials of the trial judge, defense
attorney, and prosecutor appearing beside the modification. The other checkboxes on the form were
left blank, including a checkbox next to the statement “the defendant has waived the right of appeal.”
As a result, the trial court’s certification form did not conform to any of the options set out in the
model form in our appellate rules. See TEX . R. APP . P., Appdx. D. No amendments have been made
to this certification.
The Rules of Appellate Procedure direct that “[t]he appeal must be dismissed if a certification
that shows the defendant has the right of appeal has not been made part of the record under these
rules.” TEX . R. APP . P. 25.2(d). Because the language saying Appellant had a right of appeal was
crossed out, the certification did not show that he had a right of appeal. The certification failed to
show why Appellant had no right of appeal and, as such, may have been defective and subject to
amendment. An amendment would not, however, have caused the certification to show a right of
appeal because the record contains a signed waiver of appeal.
2

301 S.W.3d 694 (Tex. Crim. App. 2009).

3

282 S.W.3d 492 (Tex. Crim. App. 2009).

4

Buck v. State, No. 08-16-00294-CR, 2018 Tex. App. LEXIS 6038, *12 (Tex. App.—El
Paso August 2, 2018) (not designated for publication).

Appendix 19

BUCK CONCURRENCE - 3
Ultimately, the court of appeals concluded that his plea was voluntary and, consequently, that his
waiver of appeal was voluntary.5 On discretionary review, Appellant relies upon Broadway, Reedy,
Ex parte Delaney,6 Blanco v. State,7 and Carson v. State8 for his claim that his waiver of appeal was
involuntary.
PLEA-BARGAIN CASES
First, in Cooper v. State, which was a plea-bargain case, we held that a defendant may not
challenge the voluntariness of his plea in an appeal from a plea bargain.9 Later, in Dears v. State,
we addressed the application of Rule 25.2’s general prohibition against appealing in a plea-bargain
case.10 In a plea-bargain case, a defendant may appeal only matters that were raised by written
motion filed and ruled on before trial or when the trial court gives permission to appeal.11 Because
the record in Dears showed that the appeal was from probation-revocation proceedings, and such
proceedings are not subject to plea-bargaining within the contemplation of Rule 25.2, the defendant
was entitled to appeal, and the certification saying otherwise was inaccurate.12 The certification was

5

Id. at *12-18.

6

207 S.W.3d 794 (Tex. Crim. App. 2006).

7

18 S.W.3d 218 (Tex. Crim. App. 2000).

8

559 S.W.3d 489 (Tex. Crim. App. 2018).

9

(Absent the trial court’s permission to appeal, of course). 45 S.W.3d 77, 78, 81, 83 (Tex.
Crim. App. 2001). See also Griffin v. State, 145 S.W.3d 645, 646-47 (Tex. Crim. App. 2004)
(discussing Cooper’s holding and concluding that even a jurisdictional claim cannot be raised if the
defendant does not meet one of the exceptions in R. 25.2).
10

154 S.W.3d 610, 614-15 (Tex. Crim. App. 2005).

11

R. 25.2(a)(2).

12

154 S.W.3d at 613-15.

Appendix 20

BUCK CONCURRENCE - 4
“defective,” and the court of appeals had an obligation to have it corrected.13 This holding focused
on whether there was in fact a plea bargain. It did not go behind the plea bargain to determine
whether it was voluntary.
Dears did not overturn our holding in Cooper. The combined effect of Dears and Cooper
is that, on appeal, a defendant can challenge the existence of a plea bargain but not the voluntariness
of a bargain.
WAIVERS OF APPEAL
For several reasons, the logic of Dears and Cooper regarding the general inability to appeal
in a plea-bargain case should also apply when there is a waiver of appeal. As with a waiver of
appeal, the limitation on appeals in plea-bargain cases arises from an action of the defendant that cuts
off his right to appeal. A defendant who waives appeal is explicitly foregoing that right, while a
defendant who agrees to a plea bargain (without reserving any issues by pretrial motion and without
the trial court’s permission to appeal) accepts that he will not be able to appeal. Moreover, while
Rule 25.2 does not refer to appellate waivers, the model certification form in the appellate rules
contains an option that “the defendant has waived the right of appeal.”14 This language says nothing
about the waiver being voluntary, just as the plea-bargain language in Rule 25.2 says nothing about
the voluntariness of such a bargain.
Three of the four reasons given for the holding in Cooper apply to waivers of appeal.15 First,

13

Id. at 614 (citing TEX . R. APP . P. 37.1 and 34.5(c)).

14

Appdx. D.

15

The first reason in Cooper, which does not apply to waivers of appeal, is that the
legislative enactment upon which the appellate rule was based did not permit a defendant to raise
an involuntary-plea claim on appeal. See Cooper, 45 S.W.3d at 81.

Appendix 21

BUCK CONCURRENCE - 5
we stated that allowing a challenge on appeal to the voluntariness of the plea in a plea-bargain case
“would completely frustrate the statute.”16 Second, we explained that prohibiting such an appeal was
supported by a “cost-benefit analysis,” because the number of cases involving a meritorious
involuntary-plea claim reflected in the appellate record would be exceedingly small:
The number of cases in which the plea is involuntary when the trial court followed
the plea agreement is therefore very small, and the number of cases in which the
involuntariness would appear in an appellate record is even smaller. Experience has
shown us that most cases of involuntary pleas result from circumstances that existed
outside the record, such as misunderstandings, erroneous information, impaired
judgment, ineffective assistance of counsel, and plea-bargains that were not followed
or turn out to be impossible of performance. The legislature reasonably determined
to eliminate a small number of meritorious appeals to prevent a much larger number
of meritless appeals.17
Third, we said that a meritorious involuntary-plea claim may be raised by other procedures: motion
for new trial and habeas corpus.18 We explained that those procedures “are not only adequate to
resolve claims of involuntary pleas, but they are superior to appeal in that the claim may be
supported by information from sources broader than the appellate record.”19
These three reasons apply with as much force when a defendant tries to challenge the
voluntariness of his waiver of appeal by means of an appeal. First, if an appellant can appeal in order
to raise a claim that his waiver was involuntary, then the point of waiving the appeal is lost. Under
such circumstances, as much time and effort on appeal could be expended evaluating whether a
waiver of appeal was voluntary as would be expended to evaluate substantive claims on appeal. In

16

Id.

17

Id.

18

Id. at 82.

19

Id.

Appendix 22

BUCK CONCURRENCE - 6
the present case, for instance, the court of appeals addressed Appellant’s substantive claims in full.
Doing so defeats the purpose of a waiver of appeal. And if the State cannot rely on the effectiveness
of waivers of appeals, then both it and defendants in general will be at a disadvantage in negotiations
at trial: the State will lose its incentive, and defendants will lose a bargaining chip.
Second, allowing such challenges on appeal would only slightly expedite review of the few
meritorious claims of involuntary appellate waivers while opening the door to appellate review of
unmeritorious claims. If a defendant can always challenge a waiver of appeal as involuntary, then
it is likely that many defendants will do so, regardless of the merit of such claims, and that courts
will be forced to expend significant resources evaluating such claims.
Third, if a defendant wants to challenge a waiver of appeal as involuntary, he can do so by
means of habeas corpus.20 This gives both the State and the defendant the opportunity to elicit
evidence on the issue and develop a complete record regarding the appellant’s state of mind at the
time he signed the waiver. Given the availability of habeas, we need not allow the purpose of
appellate waivers to be frustrated by entertaining attacks on those waivers in appeals.
OUR PRIOR OPINIONS
Most of our prior cases are consistent with our holding today but, more to the point, in none
of our opinions did we specifically address the question of whether the voluntariness of a waiver of
appeal was an appropriate subject for appellate consideration. Broadway, Reedy, and Delaney were
all habeas cases, where it was appropriate to consider the voluntariness of the waiver. Blanco and
Carson were direct appeal cases, but in those cases we held that the defendant was not entitled to

20

Whether a defendant can raise a challenge to an appellate waiver in a motion for new trial,
if a motion for new trial has not been waived, is not before us. I express no opinion on that question.

Appendix 23

BUCK CONCURRENCE - 7
appeal.21 I am aware of two other cases in which we addressed, on direct appeal, the voluntariness
of an appellate waiver: Jones v. State22 and Washington v. State.23 As in Carson and Blanco, Jones
also held that the defendant was not entitled to appeal.24 Importantly, Jones assumed that
involuntariness of a waiver of appeal is something that would render a certification inaccurate under
Dears without actually addressing whether that is so,25 and the cases we relied on for granting relief
on such a claim were habeas cases, not direct appeal cases.26 And while Washington did hold that
the defendant was entitled to appeal,27 it was a short per curiam opinion that, without elaboration and
without accounting for the procedural differences, uncritically relied on Delaney and, in a footnote,
on our decision in Dears.28 Although the grant of relief in Washington might be said to support the
notion that we implicitly held that a court of appeals could consider the voluntariness of a waiver of
appeal on direct appeal, that issue was not litigated by the parties and the fact of the matter is that
we did not consider it at all. We should now address the issue head-on and hold that, when a

21

Blanco, 18 S.W.3d at 219 (court of appeals dismissed appeal), 220 (affirming the court
of appeals); Carson, 559 S.W.3d at 496 (concluding that waiver of right to appeal was valid but
remanding to court of appeals to address the defendant’s claim that there was an exception to the
waiver rules).
22

488 S.W.3d 801 (Tex. Crim. App. 2016).

23

363 S.W.3d 589 (Tex. Crim. App. 2012).

24

488 S.W.3d at 808 (affirming court of appeals’s dismissal of the appeal).

25

See id. at 804-05.

26

See id. at 805 (citing Delaney and Broadway).

27

363 S.W.3d at 589 (during adjudication proceedings and before sentencing, the defendant
waived appeal without an agreed recommendation, and waiver was found to be invalid).
28

Id. at 590 nn.2, 4 (citing Delaney and Dears).

Appendix 24

BUCK CONCURRENCE - 8
defendant has signed a waiver of appeal, a court of appeals cannot address a claim that the waiver
was involuntary by means of the appeal that was purportedly waived.
I concur in the Court’s judgment.

Filed: June 10, 2020
Publish

Appendix 25

23
1
2

(Open court; September 19, 2016; defendant not
present.)

3
4

THE COURT:

The court calls the lawsuit styled

the State of Texas versus Michael J. Buck, 20160D01234.

5

Announcements of counsel.

6

MR. FERGUSON:

7

the State, Your Honor.

8
9

Scott Ferguson and Curtis Cox for

The State is ready.

MS. CABALLERO:

Theresa Caballero on behalf of

Mr. Buck, and I'm here with my friend and colleague, Mr. Howard

10

Rubinstein, who is wanting to ask the Court if he can help me

11

with the voir dire portion of the trial as an assistant but not

12

an attorney on the record -- an attorney of record.

13
14

THE COURT:
the bar.

Yeah.

Only licensed personnel inside

Once the trial starts, if it's --

15

MR. STEIN:

I'm licensed.

16

THE COURT:

Have you filed an entry of

18

MR. STEIN:

No, I have not.

19

THE COURT:

Then just -- I'll let you sit in the

MR. STEIN:

That will be fine.

17

20

appearance?

jury box.

21
22
23

Thank you,

Your Honor.
MS. CABALLERO:

Okay.

Judge, I have conferred

24

with the prosecution as of last week.

25

client would like to plea guilty if the Court would consider

And we -- number one, my

Andrea Quezada, CSR
243rd District Court

Appendix 26

24
1

allowing him to plead.

2
3

THE COURT:
guilty.

4
5

I can't stop him from pleading

MS. CABALLERO:

Okay.

The original

recommendation had been five years.

6

THE COURT:

Yes.

7

MS. CABALLERO:

After last week, the State

8

doubled it, went to ten.

Mr. Buck knows that, and he's asking

9

for the opportunity to plead guilty and take the ten.

If the

10

Court is not open to that, if the Court could give us some

11

guidance on that.

12

THE COURT:

Well, since you're coming to the

13

Court for punishment, I guess that makes it an open plea.

14

not going to commit myself to anything the State says.

15

pleas, it's an open plea.

16

MS. CABALLERO:

I'm

He

My understanding from him last

17

time we spoke, which was last week, was that if he -- he

18

understands that there's a possibility of an open plea to the

19

Court.

20

to reconfirm with him.

21

His instructions were that he would do that, but I want

Judge, I do have a couple of motions that

22

Mr. Buck isn't here for, but he had expressed when we were here

23

the last time on the record that he did not want me as counsel.

24

I did file a formal written motion to withdraw.

25

THE COURT:

And I entered a formal order denying

Andrea Quezada, CSR
243rd District Court

Appendix 27

25
1

it.

2

MS. CABALLERO:

Okay.

And then I did have a

3

motion on file to get his prosthetic nose.

4

THE COURT:

5

now.

6

Is it in evidence?

I'm not going to address that right

We're here for the jury trial.

7

MR. COX:

8

MR. FERGUSON:

9

MR. COX:

10
11

So -- and I don't have it.

No, Your Honor.
No, it's not in evidence.

I believe it's in his vehicle, which is

in the impound lot, I think
MS. CABALLERO:

Judge, my understanding from my

12

client is that it's in his car -- it's in his van, that the van

13

was impounded by S-O, and we had asked for it earlier in the

14

summer, I think in June.

15

THE COURT:

16

MS. CABALLERO:

17

THE COURT:

18
19
20
21
22
23
24
25

Who do I order?

What do I order?

S-O to get it.

I don't think I have that authority

to order them to go into an impound lot and retrieve evidence.
MR. FERGUSON:

Based on our review of the court

file, there is no order addressing that motion.
THE COURT:

I'm just saying I don't even know if

I have that authority.
MS. CABALLERO:

I understand, Your Honor.

If I

could have an order on that one?
THE COURT:

I'm not even going to address that

Andrea Quezada, CSR
243rd District Court

Appendix 28

26
1

right now.

2

open plea of guilt?

3
4

So let me ask you, is it your intent to enter an

MS. CABALLERO:
instructions still.

Well, he's not here, Your Honor.

5

THE COURT:

6

MS. CABALLERO:

7

10

Is he coming or -Those were his last instructions

to me, but I want to confirm.

8
9

If those are my client's

THE COURT:

I need to know because if he doesn't

have a decision, then we pick a panel on it, so that's up to
him.

11

MS. CABALLERO:

12

THE COURT:

Uh-huh.

Either way, either way, he's getting

13

resolved one way or the other.

14

MS. CABALLERO:

15

THE COURT:

Thank you.

16

MR. STEIN:

Your Honor, thank you, by the way.

17

THE COURT:

Yes, sir.

18

(Court in recess.)

19

(Open court; defendant present.)

20

THE COURT:

21

I understand.

The Court calls the lawsuit styled

the State of Texas versus Michael Buck, 20160D01234.

22

Announcements of counsel.

23

MR. COX:

Your Honor, for the record, Curtis Cox

24

and Scott Ferguson for the State.

25

proceed.

The State is ready to

Andrea Quezada, CSR
243rd District Court

Appendix 29

27
1
2

MS. CABALLERO:
Mr. Buck.

3
4

THE COURT:

Let the record reflect we had

Mr. Buck, it was my understanding that you were
going to enter an open plea of guilt.

7
8

Okay.

some complications this morning.

5
6

Theresa Caballero on behalf of

THE DEFENDANT:

No.

Is that correct?

I'd like to go to trial and

defend myself.
THE COURT:

9

Well, let the record reflect

10

unfortunately we voir dired on another case.

11

empanelled -- the jury was -- the empanelment has been released.

12

So here's what we're going to do, Mr. Buck.

13

continue this trial to Friday.

14

THE DEFENDANT:

15

THE COURT:

We will

All right.

Mr. Buck, let me explain a couple of

things to you.

17

withdraw was denied, and it's still denied.

18

first-degree felony.

One, I am not -- your attorney's motion to

19

How many counts?

20

MR. FERGUSON:

21

THE COURT:

You are here on a

Two counts, Your Honor.

Two counts.

All right.

Have you

explained the consecutive sentencing to your client, ma'am?

23

MS. CABALLERO:

24

THE COURT:

25

All right.

Okay?

16

22

That jury has been

No, Your Honor.

Okay.

Take a minute and do it real

quick.
Andrea Quezada, CSR
243rd District Court

Appendix 30

28
1

(Short pause.)

2

THE COURT:

3
4
5

Let the record reflect counsel had an

off-the-record conversation with her client.
Did you understand your attorney's explanation of
consecutive sentencing, what's commonly known as stacking?

6

THE DEFENDANT:

7

THE COURT:

Yes, ma'am -- I mean, yes, sir.

Mr. Buck, I also want to point out to

8

you that you have an absolute right to represent yourself.

9

are looking at five to 99 or life on count 1.

You

You are looking

10

at five to 99 or life on count 2.

11

counsel be available to you.

12

that is your right.

13

this Court will hold you to the same standard as I do these two

14

prosecutors who have graduated from law school.

15

understand that?
THE DEFENDANT:

17

THE COURT:

18

THE DEFENDANT:

19

THE COURT:

Do you

Yes, sir.

I know you are not familiar -Not at all.

Not at all.

I know you're not familiar with the

rules of evidence.

21

THE DEFENDANT:

22

THE COURT:

23

If you want to proceed pro se,

I also want to tell you, Mr. Buck, that

16

20

I'm going to request your

Not at all.

I will hold you to the same standard.

Do you understand that?

24

THE DEFENDANT:

25

THE COURT:

Yes, sir.

I am bound by the law to enforce the

Andrea Quezada, CSR
243rd District Court

Appendix 31

29
1

rules of evidence and the code of criminal procedures, the

2

statutes.

3

any other lawyer.

4

Ms. Caballero, that is your decision.

5

let me restate that.

6

the vicinity.

7

You will proceed and be held accountable, just like
Now, if you do not want the assistance of

Okay.

I'm going to request --

I'm going to order that she be sitting in

But understand something.

8

start this trial and expect her to take it over.

9

pro se, sir, you will finish this trial pro se.

You will not
You proceed
She will be

10

there merely to assist you and answer your questions.

11

going to try the case for you.

12

THE DEFENDANT:

13

THE COURT:

14

THE DEFENDANT:

She's not

Do you understand that?
Yes, sir.

May I say something?

Yes, sir.
Okay.

When I came in on August

15

31st, I was offered a plea of five years.

16

my lawyer, "I would like to think about this.

17

an idea of how much time I can have to think about it?"

18

said, "You've got a week."

19

that I would go ahead and accept the five years and that way, I

20

wouldn't have to go to trial.

21

the evidence that I asked her to get, such as my medical records

22

and other things, and she stated no.

23

Okay.

At the time, I asked
Can you give me
And she

I came in on 9/6 and told her

And I asked her if she got any of

So I know that my case was really weak.

So

24

that's why I went ahead and said I would accept the five years.

25

Then she came Tuesday the 13th, told me the five years had been
Andrea Quezada, CSR
243rd District Court

Appendix 32

30
1

taken off the offer.

2

be able to represent me the way that I would feel like I wanted

3

to be represented because she keeps going back to the idea that

4

I don't want to be represented because I have cancer.

5

not the way I want to be represented.

6

I don't think she's going to be able to --

THE COURT:

That's

Mr. Buck, listen to me and listen to

7

me carefully.

I'm not interested in what you think the strength

8

of your case is.

9

guilty on count 1, it's five to 99 or life.

What you need to understand, if this jury says
If they say guilty

10

on count 2, that's five to 99 or life, and I and I alone will

11

decide whether to stack you or let them ride.

12

THE DEFENDANT:

13

THE COURT:

14

MR. FERGUSON:

I thought the jury had --

No, sir.
Your Honor, I don't know if the

15

defendant is aware, but he's -- the election after the 28.01s --

16

I believe he's going to the judge for punishment.

17

THE COURT:

Let me rephrase that.

Am I correct?
If they find

18

you guilty, I will assess punishment between five and 99 or life

19

on count 1.

20

I will decide whether to stack them or let them run concurrent.

21

I and I alone will make that decision.

22

Then I'll decide count 2, five to 99 or life.

Then

Now, Mr. Buck, if -- it's my understanding,

23

Ms. Caballero, that the complainant knew the defendant and is

24

fully intending to appear in Court and testify that the

25

defendant is the one who sexually assaulted her.
Andrea Quezada, CSR
243rd District Court

Appendix 33

31
1
2

MS. CABALLERO:
Court asking?

3
4

THE COURT:

Yeah.

I'm not saying right or wrong,

just what she's going to say.

5
6

Judge, my understanding -- is the

MS. CABALLERO:

My understanding from the

prosecutor is that the complainant is prepared to come in.

7

THE COURT:

Okay.

Mr. Buck, understand, I don't

8

know if she's telling the truth or she isn't.

I'm merely

9

telling you what the State anticipates she's going to say.

10

the jury doesn't believe her, good for you.

11

her, you have a problem because I am going to sentence you.

12

THE DEFENDANT:

If

If they do believe

Well, in that case, Your Honor,

13

I'd like to go ahead and take the open plea because I thought

14

that the jury would have the right to assess the punishment.

15

THE COURT:

No, sir.

You are mistaken.

The jury

16

will tell you guilty or not guilty, count 1; guilty, not guilty

17

count 2.

18

THE DEFENDANT:

19

and plea -- an open plea, sir?

20

MS. CABALLERO:

All right.

Then may I go ahead

May I say one thing -- a couple

21

of things?

Mr. Buck is correct in that when we were here at the

22

28.01 -- the five years had been made -- the offer had been made

23

at some prior time, and he wanted to think about it.

24

28.01, he asked me how much time he had.

25

did not -- I did not know that the deadline was the 28.01.

And at the

I told him a week.

Andrea Quezada, CSR
243rd District Court

Appendix 34

I

And

32
1

I don't know if the Court stated that.

2

we came back the next week, the Court handed me the

3

psychological evaluation.

4

the 28.01.

5

So when

That was still pending at the time of

So when we -- when the Court handed me that -- or

6

maybe it was at the 28.01.

7

recently.

8

five."

9

plea."

10

I don't recall.

I don't recall, but it was very

So then my client said, you know, "I'll take the

And I said, "I will let the Court know and set it for a

So I'm asking the Court on behalf of my client,

11

given that there was a psychological evaluation and that we were

12

handed the report at the end and that I did not know that the

13

28.01 was the deadline for the five years, to please, you know,

14

consider that when taking this.

15

MR. FERGUSON:

Your Honor, actually, I think

16

Ms. Caballero is thinking of a status hearing where we got

17

the -- the report.

That was before the 28.01s, so I just --

18

MS. CABALLERO:

19

MR. FERGUSON:

20

THE COURT:

Okay.

I don't recall.

I want to make sure --

The status was -- let me show you

21

what my record reflects.

4/12/16, DA rec, five TDC; 5/4/16,

22

status, rec DA, five TDC; 5/18, bond hearing, reduced from

23

100,000 to 75,000, the rec remains the same; 8/31/16, 28.01

24

hearing, no motions filed, on schedule; 9/6, final judge's

25

conference, on schedule.
Andrea Quezada, CSR
243rd District Court

Appendix 35

33
1

Okay.

Now, for whatever it's worth, I don't want

2

to get caught up in what you thought of the five TDC because the

3

fact of the matter is, I'm not signing plea papers at five TDC.

4

Period.

5

matter what you have to say about that.

6

accept that plea -- and I'm not.

7

and you don't have a deal, regardless of what the State of Texas

8

has to say, regardless of what your attorney says.

9

plea papers, there is no five TDC.

It doesn't matter what you were told.

10

It doesn't

The law says if I don't

I'm not signing plea papers,

I don't sign

And I specifically told you, "You leave today,

11

those five TDC is off the table."

12

wasn't kidding.

13

five TDC.

14

It's too late.

15

They're off.

And believe it or not, I

So there's no need to talk about

And I don't want to hear, I'll take my five TDC now.
There is no five TDC.
These are your options, Mr. Buck.

One, on

16

Friday, we will empanel another jury panel.

17

trial.

18

jury, but the reality is, I will -- if you enter a plea of

19

guilty to the jury, I will instruct them to find you guilty,

20

they will do so, and then you come to me for punishment.

21

don't consider that a viable option.

22

guilty today on what we call an open plea, meaning there is no

23

recommendation from the State of Texas to bind the defense, and

24

I will assess an appropriate punishment.

25

You will go to

Two, I cannot stop you from entering a plea to that

THE DEFENDANT:

So I

Or two [sic], you plea

All right.

I'd like to go ahead

Andrea Quezada, CSR
243rd District Court

Appendix 36

34
1

and plea to the open plea, sir.

2
3

THE COURT:

All right.

Let's do this.

It's my

understanding that you wanted to present testimony.

4

MR. FERGUSON:

5

THE COURT:

Yes, Your Honor.

All right.

Ms. Caballero, what I'm

6

anticipating doing is accepting the plea, finding him guilty,

7

and then assess punishment tomorrow.

8

MR. FERGUSON:

9

THE COURT:

10

That's fine, Your Honor.

Tomorrow?

MR. FERGUSON:

Can we do it tomorrow?

Based on -- based on the open

11

plea, it would just be a very abbreviated amount of testimony.

12

But I think that in this case, it warrants putting on some

13

evidence, especially since we've got people already coming up

14

from Alamogordo, so...

15

MS. CABALLERO:

16

not sure what my role is here.

17
18

THE COURT:
role.

Your Honor, at this point, I'm

You're his attorney.

That's your

Your motion to withdraw, Ms. Caballero, was denied.

19

MS. CABALLERO:

20

THE COURT:

21

MR. FERGUSON:

Okay.

So I guess that makes you his lawyer.
And the other thing is, he still

22

has to -- the State would request that he -- since he's made the

23

request on the record, that the defendant be required at this

24

point to state to the Court whether he intends to represent

25

himself or not because I don't know that that's been made clear
Andrea Quezada, CSR
243rd District Court

Appendix 37

35
1

on the record.

And now that --

2

THE COURT:

3

I think he's correct.

4

That's a good point.
Well, let me ask him

because --

5

Mr. Buck, are you proceeding pro se?

6

THE DEFENDANT:

7

THE COURT:

8

No.

Well, that takes care of that,

Ms. Caballero.
MS. CABALLERO:

9
10

THE COURT:

11

let me do this.

12

guilty?

Thank you, Your Honor.

Because if he did -- all right.

Now,

I will accept -- just for -- he intends to plea

13

MS. CABALLERO:

Yes, Your Honor.

14

THE COURT:

15

MS. CABALLERO:

16

THE COURT:

17

THE DEFENDANT:

18

THE COURT:

19

me go ahead and accept his plea of guilt.

20

guilty of aggravated sexual assault, and we will proceed to

21

sentencing tomorrow.

Open plea?
That's my understanding.

Is that your understanding?
Yes, sir.

All right.

Then let me do this.

Let

I will find him

22

You'll have your people ready?

23

MR. FERGUSON:

24

THE COURT:

25

MR. FERGUSON:

Yes, Your Honor.

All right.
We need to fill out plea papers

Andrea Quezada, CSR
243rd District Court

Appendix 38

36
1

because we weren't working on it in the interim because we --

2

THE COURT:

3

MR. FERGUSON:

4

All right.

All right.

I apologize to the Court for lack

of diligence in that regard.

5

(Court in recess.)

6

(Open court; defendant present.)

7

THE COURT:

8

Announcements of counsel.

10

MR. COX:
and Scott Ferguson.

12
13

Your Honor, for the State, Curtis Cox

The State is ready to proceed.

MS. CABALLERO:

Theresa Caballero on behalf of

Mr. Buck.
THE COURT:

14
15

The Court calls the lawsuit styled

the State of Texas versus Michael J. Buck, 20160D01234.

9

11

Sir, would you please raise your

right hand?

16

(Defendant sworn.)

17

THE COURT:

18

Good idea.

Please put down your hand.

Sir, have

you had more than ten days to prepare for this plea of guilt?

19

THE DEFENDANT:

20

THE COURT:

Yes, sir.

All right.

Sir, I'm going to hand

21

your attorney what's been marked State's exhibit number 1.

22

going to request that you review this document, sir.

23
24
25

I'm

Ms. Caballero, did you explain what's been marked
State's exhibit number 1 to your client?
MS. CABALLERO:

I have, Your Honor.

Andrea Quezada, CSR
243rd District Court

Appendix 39

37
1

THE COURT:

Do you believe he understood the

2

admonishments, the rights, and the consequences of giving up

3

these rights by signing State's 1?

4

MS. CABALLERO:

5

THE COURT:

6

Sir, are you satisfied with your

attorney's representation of you in this matter?

7

THE DEFENDANT:

8

THE COURT:

9

your client is not presently competent to proceed?
MS. CABALLERO:

11

THE COURT:

No, sir.

Sir, have you ever been found

incompetent by any court of law?

13

THE DEFENDANT:

14

THE COURT:

15

Yes, sir.

Ms. Caballero, any reason to believe

10

12

Yes, sir.

No.

Have you ever been examined by a

doctor or psychiatrist who found you to be mentally ill?

16

THE DEFENDANT:

17

THE COURT:

No, sir.

Sir, based on my observations of you

18

this morning and the responses to my questions, I will also

19

enter a finding that I believe you're presently competent to

20

proceed.

21

What is your citizenship, sir?

22

THE DEFENDANT:

23

THE COURT:

United States of America.

And with regards to the indictment

24

charging you with aggravated assault, two counts, what is your

25

plea, sir?
Andrea Quezada, CSR
243rd District Court

Appendix 40

38
1

THE DEFENDANT:

2

THE COURT:

3

THE DEFENDANT:

4

THE COURT:

5

What is your citizenship, sir?

Are you entering this

plea of guilt freely and voluntarily?
THE DEFENDANT:

7

THE COURT:

9

U.S.A, United States of America.

And -- okay.

6

8

Guilty.

Yes, sir.

Will the State please summarize the

evidence?
MR. FERGUSON:

Your Honor, for purposes of this

10

stage of the proceedings, the evidence would show that this

11

occurred specifically on the 10th day of February 2016 in El

12

Paso County, Texas.

13

intentionally, knowingly caused the penetration of the sexual

14

organ of Arizay Rodriguez by means of his finger, and in the

15

course of the same criminal episode, he did that without the

16

consent of the complaining witness.

17

episode, he used a deadly weapon; specifically, a gun.

18

And that the -- count 1, the defendant

In the course of that

As to count 2, that occurred on or about the 10th

19

day of February 2016 in El Paso County, Texas.

20

would show that the defendant intentionally, knowingly caused

21

the penetration of the mouth of Arizay Rodriguez with the sexual

22

organ without the consent of the complaining witness.

23

the course of the same criminal episode, he exhibited a deadly

24

weapon; specifically, a gun.

25

exhibit 1 and also State's exhibit 2, which is a copy of the

The evidence

And in

The State would submit State's

Andrea Quezada, CSR
243rd District Court

Appendix 41

39
1

complaint affidavit for the Court's record.

2

MS. CABALLERO:

3

MR. FERGUSON:

No objection.
Scott Ferguson for the State,

4

Your Honor.

5

DNA report showing that the defendant's DNA was actually found

6

on the victim's breast and on her belly.

7

We are also submitting State's exhibit 3 being the

THE COURT:

Mr. Buck, are you agreeing to

8

stipulate that the summary of evidence by the State of Texas was

9

true and correct?

10

THE DEFENDANT:

Yes, sir.

11

THE COURT:

12

MS. CABALLERO:

13

THE COURT:

14

Is there a plea agreement in this case?

15

MR. COX:

Any objection to State's 1, 2, or 3?
No, Your Honor.

State's 1, 2, and 3 so admitted.

There is not, Your Honor.

The

16

defendant -- the only agreement to this point is that the State

17

has agreed to waive its right to a jury trial and the defendant,

18

in consideration of that, has agreed to waive his appellate

19

rights.

20

THE COURT:

Says the defense?

21

MS. CABALLERO:

That's correct, Your Honor.

And

22

I would like to state for the record that I explained to

23

Mr. Buck that by signing these plea papers in this particular

24

agreement, he understood he was waving his right to appeal in

25

return for the State waiving its right to a jury trial.
Andrea Quezada, CSR
243rd District Court

Appendix 42

40
1

THE COURT:

Mr. Buck, based on the evidence

2

presented this morning and on your plea of guilt, I will accept

3

your plea of guilt.

4

you guilty of aggravated sexual assault, and on count 2, I will

5

find you guilty of aggravated sexual assault.

6

until tomorrow, 0800, at which time we will commence the

7

sentencing portion.

And at this time, on count 1, I will find

We will recess

8

Anything further from the State?

9

MR. FERGUSON:

10

Your Honor.

11

MS. CABALLERO:

12

THE COURT:

13

Nothing further until tomorrow,

adjourned.

No, Your Honor.

This meeting -- this hearing is

Thank you very much.

14

(Court in recess.)

15

(Open court; 20 September 2016; defendant

16

present.)

17
18

THE COURT:

The Court calls the lawsuit styled

the State of Texas versus Michael J. Buck, 20160D01234.

19

Announcements of counsel.

20

MR. COX:

21

and Scott Ferguson.

22
23

The State is ready to proceed.

MS. CABALLERO:
Michael Buck.

24
25

Your Honor, for the State, Curtis Cox

Ready, Your Honor.
THE COURT:

is present.

Theresa Caballero on behalf of

Let the record reflect the defendant

Yesterday, the defendant pled guilty to the offense
Andrea Quezada, CSR
243rd District Court

Appendix 43

